Audit of Nursing Homes and Denial of Payment Remedies - State of Illinois - October 1, 1999 Through September 30,
2001 - October 1, 1999
Through September 30, 2001 - Illinois Department of Public Aid
Department of Health
and Human Services
"Audit of Nursing Homes and Denial of Payment Remedies - State of Illinois - October 1, 1999 Through September 30,
2001 - Illinois Department of Public Aid", (A-05-03-00085)
May 20, 2004
Complete
Text of Report is available in PDF format (228kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether mandatory denial
of payment remedies for substandard quality of care was applied to nursing homes that were not in substantial compliance
with the prescribed Medicaid participation requirements and to evaluate whether State controls were adequate to prevent
improper Medicaid payments to nursing homes under the denial of payment remedy.  Our audit included denial of payment
sanctions, which were in effect or should have been in effect from October 1, 1999 to September 30, 2001.   We found
that the State permitted improper Medicaid payments for new admissions totaling $139,783 ($69,892 Federal share) to sanctioned
nursing homes.  We recommended the State refund the reported overpayments and implement procedures to ensure payments
to providers are suspended timely.  State agency officials agreed with the findings and recommendations.